No. 20-1113
IN THE

'uprente Court of the Butters ii§tateo
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
Petitioners,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF HEALTH AND
HUMAN SERVICES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,260 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 28, 2021.

Colin Casey Hog
Wilson-Epes Pr' ting Co., Inc.

